<html>
<title> - FROM RESCUE TO RECOVERY: BUILDING A THRIVING AND INCLUSIVE POST- PANDEMIC ECONOMY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                   FROM RESCUE TO RECOVERY: BUILDING
                     A THRIVING AND INCLUSIVE POST
                            PANDEMIC ECONOMY

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2021

                               __________

                            Serial No. 117-9

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                     Available on: www.govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov                             
                             
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-985 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                            
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Vacancy

                     David Rapallo, Staff Director
             David Hickton, Select Committee Staff Director
                     Russell Anello, Chief Counsel
                         Senam Okpattah, Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Mark E. Green, Tennessee
Jamie Raskin, Maryland               Nicole Malliotakis, New York
Raja Krishnamoorthi, Illinois        Mariannette Miller-Meeks, Iowa
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 17, 2021...................................     1

                               Witnesses

Joseph E. Stiglitz, University Professor, Columbia University, 
  Nobel Laureate in Economics
Oral Statement...................................................     7
William E. Spriggs, Chief Economist, AFL-CIO, Professor, 
  Department of Economics, Howard University
Oral Statement...................................................     9
Larry Kudlow, Former National Economic Council Director (2018-
  2021)
Oral Statement...................................................    11

Written opening statements and the written statements of the 
  witnesses are available on the U.S. House of Representatives 
  Document Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              


  * Letter Regarding School Funding; submitted by Rep. Raskin.

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

 
                   FROM RESCUE TO RECOVERY: BUILDING
                     A THRIVING AND INCLUSIVE POST-
                            PANDEMIC ECONOMY

                              ----------                              


                       Wednesday, March 17, 2021

                   House of Representatives
      Select Subcommittee on the Coronavirus Crisis
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 11:15 a.m., 
via WebEx, Hon. James E. Clyburn (chairman of the subcommittee) 
presiding.
    Present: Representatives Clyburn, Waters, Maloney, Foster, 
Raskin, Krishnamoorthi, Scalise, Jordan, Green, and 
Malliotakis.
    Chairman Clyburn. Good morning. The committee will come to 
order.
    Without objection, the House--the chair is authorized to 
declare a recess of the committee at any time.
    I now recognize myself for an opening statement.
    Americans have testified--have suffered terribly during the 
Coronavirus pandemic. The virus has killed more than half a 
million of our fellow Americans and resulted in the loss of 
more than 22 million jobs, many of which have yet to come back.
    These losses of lives and livelihoods have not affected all 
Americans equally. Historic job losses have disproportionately 
impacted populations that were also hit hardest by the virus, 
including low-wage workers, Black Americans, and Latinxes. 
Women have suffered greater economic harm than men.
    Last summer, former chair--Fed Chair Ben Bernanke and 
current Treasury Secretary Janet Yellen testified before this 
committee that low-paid workers, women, and minorities are 
overly represented in the sectors hit hardest by the economic 
crisis, like restaurants and hotels. They explained that these 
groups--and I'm quoting their joint statement here--have born a 
disproportionate share of the job and income losses, end of 
quote.
    President Trump's own Treasury Secretary agreed. He 
testified before this committee last year that many industries 
and small businesses were, in his word, ``destroyed'' by the 
pandemic. And the service industries employing low-wage 
workers--and I'm quoting again--have been particularly hard 
hit.
    Of course, many jobs have returned; 379,000 jobs were 
created in February. And the official unemployment rate has 
dropped to 6.2 percent from a high of 14.8 percent in the early 
months of the pandemic. This is encouraging news. But our 
economy has still not replaced roughly 10 million jobs that 
existed last year.
    And Fed Chair Jerome Powell has cautioned that the official 
unemployment rate fails to get to account the millions of 
Americans who have left the work force due to Coronavirus 
health or family reasons or because they work in industries 
that haven't come back yet.
    Even the official numbers show stark disparities. While the 
overall unemployment rate in February was 6.2 percent, the rate 
for White Americans stood at 5.6 percent, while the rate was 
8.5 percent for Latinxes, and nearly 10 percent for Black 
Americans.
    These job losses can have devastating long-term 
consequences for people's future employment prospects and their 
ability to stay in their home, care for their families, and 
avoid a spiral of unsustainable debt. Even as the stock market 
hits record highs, 42 million Americans, including 1 in 6 
children, do not have enough to eat.
    The American Rescue Plan will lift these communities with 
urgently needed support. The nonpartisan Urban Institute 
projects that this groundbreaking law will reduce poverty in 
America by one-third and by more than half for children and for 
families facing job loss. Racial economic disparities will be 
reduced, and the overall economy will be given a boost.
    The Select Subcommittee is committed to working with the 
Biden-Harris administration to ensure the American Rescue Plan 
is implemented effectively, efficiently, and equitably, so that 
it can, to its full benefit, can be realized.
    But rescue is only the first step toward recovery. Many 
economies are now sounding the alarm that if we fail to build 
on the American Rescue Plan, we could see a fundamental 
inequitable post-pandemic economy where the wealthy 
reconsolidate their pre-pandemic prosperity, while low-income 
families continue to suffer. We must be vigilant to ensure this 
reversion to economic inequity is avoided.
    That is why this morning, I sent a letter to the Office of 
Management and Budget and the Department of Labor asking that 
they include data on employment disparities in the upcoming 
budget and put those metrics at the forefront of our efforts to 
reduce economic inequities.
    To succeed in building a strong and inclusive post-pandemic 
economy, we must, first and foremost, invest in our Nation's 
infrastructure, as many economists are urging. We must put 
Americans to work at good wages, repairing our country's 
crumbling roads and bridges, enhancing rail and transit, 
expanding a fuller access to broadband internet, upgrading 
water systems, building houses and schools, constructing state-
of-the-art healthcare facilities, and transitioning to clean 
energy.
    As we make these investments, we must create opportunities 
for small businesses and ensure equity in Federal procurement 
and lending. Taking these steps now will pay dividends for 
generations to come.
    Just like the American Rescue Plan, bold infrastructure 
investment has broad support across the country from Democrats, 
Republicans, and Independents. Every member of this committee 
represent Americans in need of economic opportunity and 
communities in need of economic development.
    According to the Census Bureau, there are approximately 500 
counties in the United States that are classified as persistent 
poverty counties. These are counties where 20 percent or more 
of their citizens have lived below the poverty level for the 
last 30 years.
    I have long advocated that resources be targeted into these 
communities. This is not a partisan issue. Two-thirds of the 
people in these communities are represented in this body by 
Republicans. I invite my colleagues on the other side of the 
aisle to work with my colleagues on my side of the aisle on an 
ambitious plan to get all Americans back to work building a 
strong equitable and sustainable economy.
    I now yield to the ranking member for his opening 
statement.
    Mr. Scalise. Well, thank you, Mr. Chairman. And I want to 
thank our witnesses as well as the new members who have joined 
our committee in this new Congress. I look forward to all of 
your participation.
    The subcommittee has not held a hearing since October 2 of 
last year, which strikes us as pretty extraordinary. Speaker 
Pelosi stood up this committee to deal with the pandemic, yet 
we've gone five months without a single hearing during some of 
the most impactful months of the pandemic; five months, that 
is, without having investigations on school reopenings, 
fundamental health and drug addiction crisis we're seeing; to 
deal with China and the World Health Organization in the role 
they played; to look at vaccine rollout; the nursing home death 
scandal; as well as COVID that's now spreading in some of our 
communities at America's open southern border.
    Instead, the Select Subcommittee went silent during this 
period. Today, it does reopen but for the sole purpose of 
serving as Speaker Pelosi's PR machine to tout the Payoff to 
Progressives boondoggle bill that passed on a strictly partisan 
vote last week.
    When this subcommittee was created, the majority made a 
point of emphasizing the desire to model it after the Truman 
committee, which we had during World War II, a committee that 
strove to make sure the Federal Government spent taxpayer money 
wisely and effectively. But instead, what we've seen is just 
attempts to cheer spending nearly $2 trillion, over 90 percent 
of which, by the way, had nothing to do with the health needs 
or reopening schools, and then argue that, we're hearing this 
week, more taxes need to be raised, more spending, maybe 
trillions more in spending need to be made. Where does this 
end?
    A year into the pandemic, shouldn't the Select Subcommittee 
be focusing on lessons learned? There are many, good and bad, 
by the way. We do know that inflation adjusted dollars, all of 
World War II cost $4 trillion. We've now spent over $5.5 
trillion. And much of that money, by the way, still remains 
unspent. Look, hundreds of billions of dollars from previous 
COVID relief bills are still unspent.
    If this subcommittee was truly modeled after the Truman 
committee, this Select Subcommittee should be leading--the 
leading voice in Congress educating the American people that 
some Governors managed their states dramatically better than 
other Governors. And we could be sharing those best practices, 
which, by the way, those best practices in the states, these 
incubators of democracy could be shared to save us trillions of 
dollars, seeing how some did it well, some did it poorly, 
surely not replicating what was done in the states that didn't 
do it well, and trying to amplify the voices of the states who 
did it well so others can do it.
    The minority asked all year to hold hearings on China and 
the role that the World Health Organization played at being 
China's mouthpiece in those early days when they instead could 
have been helping us confront the crisis that no one knew about 
that was coming out of Wuhan. The majority refused that 
request.
    Now even The Washington Post Editorial Board has written, 
quote, ``We're still missing the origin story of this pandemic. 
China is sitting on the answers,'' close quote. We should be 
trying to get those answers. The Post Editorial Board is also 
asking the same question that we've asked the majority on the 
subcommittee from the beginning, quote, ``What is China trying 
to hide about the origins of the pandemic and why,'' close 
quote. Other voices from both the left and the right have 
raised the same concerns. But the silence from the majority 
rings loudly.
    Mr. Chairman, China's lies in the World Health 
Organization's coverup cost us half a million lives, not just 
here in America, but all around the world; could have saved 
millions of lives. Where is that bipartisan outrage?
    On June 14, the minority wrote the Governors of five states 
a letter asking for information about deadly nursing home 
policies that forced COVID-positive patients back into nursing 
homes against the CMS guidance that was out there. The majority 
ignored us. If they would have joined us, we could have gotten 
those answers. History now shows that we were right in asking 
those questions.
    And now it has come out that Governor Cuomo of New York 
initiated a potentially criminal coverup, specifically designed 
to hide those facts, not just from us in Congress, but from the 
people of New York, the families of those thousands of people 
who never should have died, who are still, by the way, 
demanding answers. Those families deserve answers. We're going 
to keep fighting until we get those answers. Whether Governor 
Cuomo wants to comply or not, the answers are going to come 
out. And you are seeing people even within his own 
administration, that don't want to go down with a sinking ship, 
that are finally starting to speak out.
    I would encourage any official in the state of New York who 
has that information to get it to us. Don't be complicit in 
Governor Cuomo's coverup. Enough reports are out there that he 
tried to hide this data. They were on a call with state 
senators in New York bragging about the fact that they hid the 
data. Don't be involved in a coverup. Thousands of families in 
New York want and deserve answers. The rest of the country can 
learn from those deadly mistakes. I would encourage everyone in 
New York, from Governor Cuomo on down, to share that 
information.
    Right now, you're seeing Democratic colleagues even calling 
for Governor Cuomo's resignation, in part citing the nursing 
home scandal, in addition to his sexual harassment scandals. 
But the silence from Democrats here in Congress rings volumes. 
Just last week, we again asked for a hearing on this scandal. I 
would urge the committee to bring this up.
    A year into this pandemic, we know many cities made 
devastating mistakes on school closures. Back in March and 
April of last year, maybe the mistakes then would have been 
understandable, but now we have the data, we have the science, 
we know what is happening to our young children all across the 
country. And by the way, the science is loudly saying the kids 
need to be back in the classroom. It can be done safely. 
There's a roadmap out there for doing it. The American Academy 
of Pediatrics has laid that out. We have also seen it from CMS. 
Even the CMS Director under President Biden acknowledged that 
kids could be back in school.
    We put hundreds of billions of dollars out there for this, 
by the way, in previous relief packages. Some school systems 
chose to actually spend this money and get kids back in the 
classroom. Unfortunately, it's only about 40 percent of 
America's students who are back in the classroom. The damage 
that's being done to millions of kids, not because of the 
science, but because of the unions who don't want to go back to 
school. In fact, they were just urging teachers they can go to 
spring break while they're not in the classroom, just don't 
post pictures of you being on spring break. That tells you 
what's going on. There is a tremendous disservice. And so many 
teachers want to be back in the classroom, and yet their unions 
are fighting to hold them out.
    These kids are suffering. We're seeing mental illness off 
the charts. We're seeing opioid abuse, including deaths and 
suicide, off the charts, not to mention, Mr. Chairman, the 
long-term damage that's being done to these kids that are being 
held back and left behind. None of us should stand for that. We 
should all be having hearings and calling for hearings on this 
scandal. And let's fight to get our schools reopen and follow 
the science.
    We hear we can't open schools until this money is spent. 
Schools need to upgrade. Of course, we already spent hundreds 
of billions in relief that was targeted to getting schools 
open. So that money is available for anyone who wanted it. But 
some schools that chose to serve the children opened, some 
bowed to the unions.
    We need to look at the science and follow it and open our 
schools. This may be one of the biggest public policy mistakes 
that America has seen by these systems that are still refusing 
to open up their schools to in-classroom learning.
    The per cap--capita death rate from COVID in California and 
Florida are about the same. New York is much higher than both. 
California and New York, of course, locked down, crushed 
businesses so many that will never reopen. Schools and churches 
that are closed. Their unemployment rates are nine and 8.8 
percent in New York and California. Florida, while facing very 
misguided criticism, opened up their schools and businesses and 
followed the science and did it safely. Their unemployment rate 
is about 4.5 to five percent, less than five percent.
    So after five months with no hearings, Mr. Chairman, it 
seems like today's hearing should be about the different 
experiences we have seen in states, some that stayed locked 
down and some states that safely opened, and how to share those 
best practices. Because if the Select Subcommittee modeled this 
after Harry Truman in what he did with the Truman Commission, 
the conclusion would be that we couldn't have saved trillions 
of dollars by focusing on the most vulnerable in our society, 
by redirecting ourselves to ending inequality in our education 
system, by simply following the science, by analyzing the data 
that's out there now after a year of shutdowns, and 
acknowledging that American ingenuity and things like President 
Trump's Operation Warp Speed are the path to getting out of 
this pandemic.
    I look forward to hearing from our witnesses, and I yield 
back.
    Chairman Clyburn. I thank the ranking member for his 
statement. And I would like to remind you, my dear friend, that 
we wanted very much to have those hearings that you talked 
about, but for some strange reason, the minority leader refused 
to appoint committee members, which prevented us from having 
those hearings.
    Now, as for the schools, I think you know that in this 
bill, the Rescue Plan, $128 million to make our schools safe so 
people can return. Being a former public schoolteacher myself, 
I know how important it is. But for some reason, my Republican 
colleagues refused to support that $128 million.
    Mr. Scalise. Will the gentlemen yield on that?
    Chairman Clyburn. Yes, I'm pleased to yield.
    Mr. Scalise. Clearly, and we pointed this out during the 
hearing, we actually tried to correct it when we were seeing 
this still move through, over 95 percent of that money for 
schools can't even be spent this year. And not a single dollar 
was dedicated to safely reopen schools. In fact, we had 
amendments to require that the money be used to reopen schools, 
and we were shut out. That amendment was blocked on a partisan 
basis.
    So, I'd look forward to working with the gentleman to 
target money on the things that need to be addressed. 
Unfortunately, the bill that passed last week didn't do that. 
And I'd yield.
    Chairman Clyburn. Well, I thank you for your statement, 
except that I totally disagree with it. But we've got some 
other people here to hear from today, so I'm not going to get 
into a back and forth with you on that. But I thank you for 
your statement.
    And I welcome today, two new members. It looks like both 
the Speaker and the minority leader have been testing my 
southern education with these appointees here. But I'm going to 
welcome on the Democratic side, Mr. Krishnamoorthi. I hope I 
didn't do too much damage to that. And on the minority side, 
Ms. Malliotakis.
    Mr. Scalise. You got it. Good job.
    Chairman Clyburn. Very good. Well, my Southernese ain't as 
bad as I thought. So, I welcome them.
    I now am pleased to welcome our distinguished witnesses: 
Joseph Stiglitz, a Nobel Laureate in economics and professor at 
Columbia University; William E. Spriggs, the chief economist at 
AFL-CIO, a professor at Howard University; and former director 
of the National Economic Council, Counselor Larry Kudlow. Thank 
you all for being here today and for your testimony.
    The witnesses will now be unmuted so we can swear them in.
    Assuming that you all have been unmuted, please raise your 
right hands.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses answered in the 
affirmative.
    Thank you.
    And without objection, your written statements will be made 
a part of the record.
    With that, Professor Stiglitz, you are now recognized to 
provide your testimony.

STATEMENT OF JOSEPH E. STIGLITZ, UNIVERSITY PROFESSOR, COLUMBIA 
            UNIVERSITY, NOBEL LAUREATE IN ECONOMICS

    Mr. Stiglitz. [Inaudible] I would like to begin by 
congratulating Congress and the administration on what they 
have already accomplished.
    Before discussing the next steps--and let me emphasize, I 
think your time is rightly spent thinking about the steps going 
forward, not thinking back of what should have been done. But 
before discussing these next steps, let me highlight some of 
the achievements of this act.
    A large child allowance that will cut child poverty in 
half. This is a huge step forward to giving the government an 
affirmative role in directly supporting people, especially 
children, who cannot fend for themselves. And, second, sector-
specific relief. The huge increase in spending for higher 
education, the health industry, and especially aid to states 
and localities, which will stem the tide of austerity policies 
and contraction that would otherwise have resulted.
    Most importantly, the dramatic difference between this bill 
and the action taken a year ago is that this bill has a vision 
of what kind of society and economy we want. With the Federal 
Government spending so much money, the expenditures should 
reflect a collective vision. It is a start to building back 
better.
    In this testimony, I focus on one dimension of building 
back better: creating a more widely shared prosperity. The 
pandemic has further exposed and aggravated the divides in our 
society. The irony is the frontline workers who put themselves 
most often in harm's way, who contribute so much to our 
society, are among the lowest paid. If we value those who 
educate our children, nurse our sick, care for our elderly, it 
is unconscionable that we pay them so little. Their wages are 
largely determined, not by abstract market forces, but by 
decisions we make as a society. Some of this low pay is a 
legacy of discrimination, many aspects of which we have been 
reminded of during the past 12 months.
    Now I am worried that the K-shaped recovery that is 
underway will further aggravate the high levels of inequality 
in the United States. It may even speed up changes associated 
with robotization and AI that are already happening, and they 
risk widening the gap even more. So, it's imperative that we 
focus our policy on dealing with the grave inequities in our 
society.
    The tasks before us are many and our resources are limited. 
Thus, we'll have to make our dollars do double and triple 
duty--rescue, revive our economy; promote economic and social 
justice; push the structural transformation of our economy and 
retrofit it to face the existential crisis of climate change.
    The good news is that research shows that there is an ample 
supply of investments that can do all of these simultaneously. 
There are strong complementarities. A green infrastructure 
program can be timely, have large multipliers, with a big bang 
for the buck; be labor-intensive; and better connect workers 
with jobs through public transportation. The effects of adverse 
environmental conditions are felt most strongly by the poor, 
and that's another reason that better environmental regulations 
and more investments to protect the environment are such an 
important part of an equitable recovery.
    I would like to note two aspects of the bill that ought to 
be addressed in future legislation. First, I would have been 
happier if some of the key provisions, such as extended 
unemployment insurance, had been linked to some measure of a 
weakness in the labor market or the economy. As I've argued in 
another recent paper with Secretary--former Secretary of 
Treasury Robert Rubin and former OMB Director Peter Orszag, we 
should have more automatic stabilizers.
    Second, many of the actions need to be made permanent. For 
instance, those related to reducing child poverty.
    There's so much to do for a truly strong resilient, just, 
and sustainable economy. And let me just list a few of those 
issues very briefly.
    A fair and better designed tax system could close 
loopholes, enhance economic efficiency, promote growth, and 
reduce the administrative burden and inequities that plague the 
current system.
    We need to ensure that everyone can receive the education 
that enables them to reach their full potential, regardless of 
their parents' income. A GI Bill for all Americans. We can 
afford it. This is an investment in our country's future. So, 
in a way, we cannot afford not to do it. But with politics in 
America being what they are, if we cannot reach this goal, it 
is time to recognize the historical legacy of discrimination 
and deprivation against African Americans and Native Americans 
and at least create a GI Bill for these groups.
    We need to deal with the legacy of education debt that has 
been built up in this country, which imposes an unacceptable 
burden on too many young Americans.
    We need affordable healthcare for all, and the gaps in the 
ACA need to be quickly remedied. A public option is a 
reasonable way forward. The pandemic demonstrated the poor 
health of so many Americans and laid bare the fact that the 
U.S. has the lowest life expectancy of any major advanced 
country and the largest health disparities.
    And we need to explore public options to make decent 
housing and a secure retirement more affordable for all.
    The rampant and growing inequalities in our society are to 
a large measure a result of power imbalances in the 
marketplace. And if we are to ensure that we don't have a K-
shaped recovery, these have to be corrected.
    Before concluding, I would like to say a word about the 
macroeconomics underlying what has been done. It would, in 
fact, be a good thing if we faced greatly tightened labor 
markets. It is only during those times that we bring 
marginalized groups into the labor force and reduce the 
longstanding inequities.
    Let me conclude, the American dream has always been about 
ensuring that everyone has a chance to have a decent middle-
class life. It has always been about opportunity for all, 
regardless of race, gender, ethnicity, or the income and 
education of one's parents. We have to recognize that, today, 
the American dream is largely a myth.
    The pandemic has provided us a moment to reflect on where 
we are and where we should go, to redesign our economy and 
society to provide that dream once more, this time for all 
Americans. I hope we seize the opportunity.
    Chairman Clyburn. Thank you very much, Professor Stiglitz.
    Now we will turn to Professor Spriggs.
    Professor Spriggs, you're now recognized.

  STATEMENT OF WILLIAM E. SPRIGGS, CHIEF ECONOMIST, AFL CIO, 
     PROFESSOR, DEPARTMENT OF ECONOMICS, HOWARD UNIVERSITY

    Mr. Spriggs. Thank you, Chairman Clyburn and Ranking Member 
Scalise, for this invitation to give testimony before your 
subcommittee today on the issue of rebuilding America's economy 
in the wake of the novel Coronavirus. I am happy to offer this 
testimony on behalf of the AFL-CIO, America's house of labor, 
representing the working people of the United States, and based 
on my expertise as a professor in Howard University's 
Department of Economics.
    My testimony will focus on some immediate needs to be 
addressed following the enactment of the American Rescue Plan, 
but it would also address some of the issues that the current 
crisis has made clear. The scope and size of the American 
Rescue Plan clearly show the cumulative cost of our economy of 
high levels of inequality and our lack of attention to 
addressing both inequality within the market economy, and our 
tools to addressing equality through our fiscal policies.
    As a Nation, our economy cannot afford workers earning less 
than $15 an hour, nor can we afford making our work force 
subject to casualization, dodging our wage and hour laws 
through misclassifying workers as independent contractors. We 
have gone too long with a falling share of national income 
going to workers, disconnecting national prosperity from wage 
incomes. It is time we balanced the bargaining power of workers 
in management and ensure our households can be more resilient 
to economic downturns.
    The huge imbalance in racial wealth is a large contributor 
to overall inequality, and it is a particular problem because 
of the low absolute level of liquidity held by Black and Latino 
households, in particular. We must recommit ourselves to 
address a legacy of a host of discriminatory policies that 
leave too many households lacking resilience during economic 
downturns. Addressing those disparities is very expensive.
    As a result of these deficiencies, the size of the American 
Rescue Plan has given us a larger national debt. To resolve 
that issue, we must learn from our past. We faced a large 
threat to our Nation during World War II. This is our biggest 
test since then. We resolved the debt of that conflict having 
higher marginal tax rates on high incomes, pursuing full 
employment policies to keep the economy from falling into 
needing fiscal stabilization, and by investing our way out of 
debt through a massive infrastructure package that created our 
modern interstate highway system.
    Further, we made a massive investment in the education of 
Americans, granting free college to returning World War II 
vets, and then repeating that by bringing the next wave of 
young people affordable student loans to pursue degrees in 
vital strategic areas in engineering, science, math, modern 
languages, and public education.
    We did not respond with austerity. We responded by doubling 
down our bets on the American people and made a down payment 
America's future, launching the greatest increase in 
productivity, wages and technological innovation among 
developed economies up through 1980.
    Our infrastructure weakness is a national security risk. 
Our clear inability to respond to the water crisis in Jackson, 
Mississippi, is another embarrassment that shows us to be weak 
and unable to quickly respond to our major disruptions.
    We must fix our unemployment insurance system. This is one 
of the things that the Rescue Plan sought to correct. We cannot 
go into the next downturn with this weakened condition. Relying 
on a state-based system that clearly showed discrimination in 
who had access to unemployment benefits that forced Congress to 
have to come up with a patch is not going to be acceptable. 
Congress must immediately go to resolve the remaining 
disparities in the system.
    In 2018, fewer than eight percent of those who were 
unemployed in leisure and hospitality received unemployment 
benefits under the normal system. That's why this patch had to 
be done, but going forward, we cannot rely on this state-based 
system.
    In rebuilding, we must face that our labor force is not 
growing fast enough. We must find ways that infrastructure 
should be the means of getting people to work, and that means 
increasing female labor force participation. That means an 
infrastructure that includes expanding childcare, addressing 
elder care, addressing the disparities in access to elder care 
that we know will result from the racial wealth gap where this 
is most acute in retirement. We must have paid family leave so 
that we can get women's labor force participation up.
    We must find a way to revamp and revise the way that we 
have been conducting higher education in the last 10 years that 
allowed this and only this generation to be faced with college 
debt at this exorbitant level. We cannot rely on higher 
education being a private-funded matter. It has a 
disproportionate impact on Black families who are more likely 
to have college debt, and when they are the ones with college 
debt, have the most college debt.
    We have to find a way to provide reliable public 
transportation. This is the way to provide mobility and 
resilience to workers, and that includes workers in rural areas 
who must have access to adequate transportation.
    Going forward, we cannot afford to have inequality at this 
level. The IMF, the OECD have clearly documented that 
inequality slows growth. This will be the biggest impediment 
for a thriving economy going forward. Everything that Congress 
can do to address inequality at all levels, at issues of race 
and gender, must be put in place so that we can have a full 
recovery for everyone.
    Thank you.
    Chairman Clyburn. Thank you very much, Professor Spriggs.
    We will now hear from Mr. Kudlow.
    Mr. Kudlow, you are now recognized.

  STATEMENT OF LARRY KUDLOW, FORMER NATIONAL ECONOMIC COUNCIL 
                      DIRECTOR (2018 2021)

    Mr. Kudlow. I raised a couple of key [inaudible] looking at 
maybe the past's prologue to the future. I'm not going to 
comment on the act that was just--the so-called stimulus act 
that was just put through. My criticisms have been made 
elsewhere. There was some good but a lot of not so good.
    I do want to say this: I agree with Mr. Clyburn and Mr. 
Scalise and some of the others that we need a balanced and 
equitable and inclusive economic recovery. I fully agree with 
that goal. What I want to note here, though, is that looking at 
the policies of the last administration, the Trump 
administration, of lower tax rates, significant rollback of 
regulations, energy independence, and also tough and fair trade 
policies, particularly with China, that pre-pandemic, in the 
first three years before we got hit by this awful catastrophe, 
we had a broad-based inclusive economic growth rate, a 
resurgence and renaissance of the economy, which middle and 
lower-middle income folks did better than upper-income folks by 
a significant degree. And minority groups, be they African 
Americans, Hispanic Americans, Asian Americans, women, people 
with only high school degrees, did significantly better. It was 
the middle-and lower-income brackets that far outpaced the 
upper brackets. The tax cuts, lower tax rates, particularly for 
corporations and smaller businesses, as well as the regulatory 
rollback and the energy storybook.
    After many years of stagnant wages going back to the year 
2000, median household incomes rose by $6,500 for a typical 
family of four. Real wages increased 10 percent for blue-collar 
and middle-class workers. I called it a blue-collar boom pre-
pandemic. 6.6 million Americans were lifted out of poverty. 
Household wealth, that's stocks and homes and cash, household 
wealth for the bottom 20 percent of income earners increased 34 
percent, while household wealth of middle-income Americans 
increased 20 percent. Wages, incomes, and household wealth for 
the top one percent and the top five percent grew but far less, 
substantially far less, than what we saw in the lower income 
groups.
    The bottom 50 percent of households saw an astonishing 40 
percent raise in net wealth. Poverty rates for African 
Americans, Hispanic Americans, Asians, women reached their 
record low numbers. Inequality declined dramatically. All this 
was a complete reversal, not only of the prior eight years, 
but, frankly, of the prior 16 years going back to the year 
2000.
    Unemployment hit 50-year lows. Employment participation 
rates hit almost 50-year highs. And, again, it benefited, you 
got low unemployment at 3.5 percent overall. But, again, the 
key minority groups, Black Americans, Hispanic Americans, Asian 
Americans, women, less well-educated blue collars and middle-
income people, they have rock bottom 50-year low unemployment 
rates. So, I just put that on the table.
    My biggest concern here is that we're going to turn back 
the clock and reverse these policies. And my thought here is 
that if we do, if we reverse the Trump tax cuts, if we move 
into a huge overregulated economy, if we end fossil fuels and 
end energy independence, we will do great damage, specifically 
to those groups that have been discussed this morning, the 
minority groups and so forth, women, people in poverty, 
underserved community.
    I want to also tout the opportunity zone program. Roughly, 
1,000 opportunity zones have been set up across the country to 
provide incentives for investments to underserved communities. 
These must be allowed to stay.
    I think at the end of the day, the best policies we can do 
is not to overspend, not to try to penalize success, not to try 
to raise taxes and regulations in ways that we haven't seen in 
30 or 40 years. The best thing we can do is provide an 
incentive-oriented supply side driven growth model that has 
worked in the past to deliver the goods and the incomes to the 
very people that we are talking about, the so-called inclusive 
recovery.
    These policies, I might add, have worked under Democrat and 
Republican administrations. I wrote a book on this subject. 
John F. Kennedy was the biggest tax cutter since World War II. 
He was really the first supply sider. Ronald Reagan followed. 
Bill Clinton may have raised taxes in his first year, but he 
wound up cutting the capital gains tax and the biggest welfare 
reforms, a bipartisanship with Newt Gingrich, that this country 
has ever seen.
    And I want to make a note on welfare reforms. I guess it 
will be my final point. I don't want to go on forever. But this 
recent stimulus bill has expanded the welfare state, probably 
by the largest amount since the LBJ Great Society. And, in 
particular, I want to express my worry and my concern that this 
expansion which has left work requirements out, whether it's 
the child credit or anything else, work requirements have been 
decimated in this bill, and people want to make that permanent. 
That goes against what Clinton and Gingrich did. And I fear 
that it will create more poverty and more unemployment as we go 
forward.
    So, I would like to see less spending. I would like to see 
more supply side economics. I say this in a bipartisan sense, 
we can work together to achieve these goals. At the end of the 
day, gentlemen, I think the private enterprise economy is going 
to deliver the goods for all Americans far better than a top-
down, heavy government, central planning economy.
    Thank you for listening.
    Chairman Clyburn. Thank you very much, Mr. Kudlow.
    Each member now will have five minutes for questions.
    I now recognize myself for five minutes.
    Now, I am very concerned that these sectors of the economy 
that have been hit the hardest during this pandemic are those 
intended to employ workers who are already economically 
vulnerable, exacerbating economic inequity. Last year, Federal 
Reserve Chairman Powell testified before our subcommittee, and 
I am quoting him here: The burden of the downturn has not 
fallen equally on all Americans. Those least able to withstand 
the downturn have been affected most. The rise in joblessness 
has been especially severe for lower wage workers, for women, 
and for African Americans and Hispanics, end of quote.
    Professor Spriggs, you testified that the unemployment rate 
for workers of color in the most affected industries last year 
was more than 38 percent, and the labor market still has not 
recovered all those jobs. What is the long-term impact on 
economically distressed communities if those inequities are not 
addressed.
    Mr. Spriggs. Thank you, Chairman Clyburn, for that 
question. It is clear from the downturn that we are currently 
at the same place in terms of the gap in payroll employment as 
we were at the depth of the Great Recession. We still have a 
long way to go.
    The loss of wealth from this large period of unemployment 
is a large contributor to the racial wealth gap. Downturns 
affect Black and Latino communities more severely. Blacks have 
the largest period of long-term unemployment. This is not a 
matter of skills. The unemployment rate for high school 
dropouts in the United States, during most of this period since 
February, for high school dropouts has been lower than the 
Black unemployment rate.
    Last month, when the Black unemployment rate went up as 
others went down, the unemployment rate for Black men, all 
Black men was lower--was higher, was higher than the 
unemployment rate for high school dropouts. This is not a 
matter of skills. It's a matter of the way discrimination takes 
place within the recovery.
    Back in April when the economy was shot, the Black 
unemployment rate collapsed. Since then, we have seen the way 
the labor market performs, and the 2 to 1 ratio is on its way 
back. That loss of income, of job experience has ramifications 
going forward. It penalizes the youngest workers the most. They 
will have permanent income loss from this.
    Chairman Clyburn. Thank you very much for your answer 
there.
    Professor Stiglitz, you know, if Congress had not enacted 
the American Rescue Plan, could we have counted on the economy 
to recover on its own?
    Mr. Stiglitz. No. In short, you know, slowly economies do 
recover. The question is how long would it take and how various 
groups would be affected. And, unfortunately, because so little 
was done earlier, both addressing the pandemic and addressing 
some of the statures and groups that most needed it, there's 
already been scarring, and that means that the potential for 
recovery quickly is inhibited. And that was one of the reasons 
why, I think, it was so important to have such a strong bill.
    In other words, economists talk about hysteresis effects. 
If you don't deal with a problem quickly, you get scarring, and 
that was already happening. That's why it was really important 
to take the strong action now.
    Chairman Clyburn. Well, thank you very much.
    I've got 25 seconds. I'm going to yield back to the ranking 
member.
    Mr. Ranking Member, you're now recognized for five minutes.
    Mr. Scalise. Thanks a lot, Mr. Chairman. I appreciate that. 
Again, I enjoyed the testimony from all of our witnesses.
    As we look at this hearing's title talking about focusing 
on rescue to recovery, clearly, in economic recovery, we want 
to get our economy back on track. We have seen some really 
strong indicators already, but we've also seen some fault 
lines.
    And I know Mr. Kudlow brought up the energy industry 
changes that President Biden's made. There's been a lot of 
concern expressed about that. But one of the people who 
expressed real concern about the very first day of the Biden 
administration canceling the Keystone Pipeline, some estimates 
say about 10,000 good union jobs eviscerated.
    I know, Mr. Spriggs, I wanted to ask you, because the head 
of your organization, Richard Trumka, had said regarding the 
canceling on the Keystone Pipeline that he said, it, quote, did 
and will cost us jobs.
    You know, as we focus on economic recovery, Mr. Spriggs, do 
you agree with Mr. Trumka that canceling the Keystone Pipeline 
was not the approach that was the right one for recovery, but 
that, in fact, we should have kept moving forward with those 
good high-paying union jobs that Keystone was producing?
    Mr. Spriggs. The labor movement has affiliates on both 
sides of the issue on the Keystone Pipeline. Those jobs are----
    Mr. Scalise. What's your opinion, if you are here as our 
witness regarding--you know, I guess, you're representing the 
AFL-CIO, what's your feeling on that? Do you think it was a 
good or bad thing to cancel Keystone?
    Mr. Spriggs. Thank you. Thank you, Ranking Member, for the 
question. And in my answer I am pointing out that from the 
union perspective, our affiliates are on both sides of that 
pipeline project, because it affects both those that are 
affected by global warming and those who get those immediate 
jobs. And so----
    Mr. Scalise. If I could point out----
    Mr. Spriggs. And so, my answer to you is that I'm concerned 
on both sides of that question. I'm concerned for those 
affiliates that lose jobs because of global warming and its 
effect. And, yes, there's a concern about the loss of those 
jobs, but there are ways to address loss of jobs.
    Mr. Scalise. All right. Well, if I may----
    Mr. Spriggs. And there are ways----
    Mr. Scalise. We're limited on time. I've got to reclaim--
I've got to reclaim my time.
    If you're concerned about global warming, first of all, 
let's recognize, by getting rid of the Keystone Pipeline in 
America, doesn't get rid of the oil that's coming from Canada. 
It just means Canada is sending that oil to refineries in 
countries like India, who, by the way, emit more carbon. So, if 
you're concerned about global warming and carbon emissions, 
having the Keystone Pipeline built here by American workers 
getting high-paid union jobs would actually reduce carbon 
emissions globally, because now those emissions are going to be 
admitted. You know, John Kerry is still going to need jet fuel 
to put in his private airplane. It's just going to come from 
Russia and Middle Eastern countries who don't have the 
standards we have.
    Mr. Kudlow, can you answer that question as well, because I 
know you touched on the energy job losses and what that means?
    You're on mute right now, Mr. Kudlow.
    Mr. Kudlow. Yes. Look, efforts to end fossil fuels are 
going to have--take an enormous toll on this economy. We're 
going to wind up losing millions of jobs. We're going to wind 
up losing energy, reducing it. We're going to increase the cost 
of energy, and it's going to affect every household. 
Particularly, middle-and lower-income people are going to 
suffer the most. So, this in my judgment, is a huge mistake.
    I do not--I'm not a denier. I think global warming needs to 
be discussed at length, but I'm saying, we should be adding to 
the portfolio of energy, not reducing it. I'm an all-of-the-
above kind of guy. We should look for technology and innovation 
in the private sector, not to shut down important projects that 
will be job killers.
    Look, I wanted to--Mr. Scalise, I just wanted to raise a 
broader point. This downturn was not a macroeconomic effect. It 
was a natural catastrophe effect. The pandemic is different 
from the Great Recession or the Great Depression. And these 
ideas of wild spending and financed by higher taxes provide the 
wrong macroeconomic solutions. But they missed the point. Here 
is the key.
    Mr. Scalise. And let me jump in, because we've only got 40 
seconds left. Because I do want to add, CBO had projected we 
were going to get over 4.5 percent growth without----
    Mr. Kudlow. Right.
    Mr. Scalise [continuing]. Taking $1.9 trillion----
    Mr. Kudlow. Right.
    Mr. Scalise [continuing]. Borrowing it from our grandkids 
for that.
    Mr. Kudlow. The economy may grow at eight percent this 
year. And, by the way, before the bill was passed, we had $1 
trillion of bipartisan bills that hadn't yet been spent. The 
key is opening the economy. It is----
    Mr. Scalise. And I know--I got one more quick question. 
Because, you know, when you think about the bill, you know, 
you're going to give taxpayer-funded checks barred from our 
kids to felons in prison in this bill. But when you look at 
things like reopening schools, what damage it's doing, 
shouldn't we be focused on things like that instead, Mr. 
Kudlow?
    Mr. Kudlow. Absolutely. Reopening schools, reopening 
businesses, ending unnecessary lockdowns. And the whole key, 
the biggest stimulus package that we----
    Mr. Scalise. Tax hikes, good or bad?
    Mr. Kudlow. Pardon?
    Mr. Scalise. Tax hikes are good or bad.
    Mr. Kudlow. Tax hikes are going to be a disaster. An 
absolute disaster. But the best stimulus, Mr. Scalise, is the 
vaccine, the vaccine, which started with Operation Warp Speed 
under the Trump administration. Now you've got about a hundred 
million. We're very close to herd immunity. That is going to 
open up the entire economy, and that is going to fill in the 
minority jobs in the lower-income areas. I don't disagree about 
that analysis. I do disagree with the solutions for it. 
Vaccines----
    Mr. Scalise. I know we're out of time, but thank you for 
that. I know we'll get into this more later. I appreciate it. 
Thanks.
    I yield back, Mr. Chairman.
    Chairman Clyburn. Thank you very much.
    Mr. Ranking Member, we have a little bit of an issue here 
with people with other hearings. Would you agree for us to do--
if I could do two Democrats now, then go to two Republicans, we 
can allow for people to get to their hearings?
    Mr. Scalise. Yes. Yes, we can do that, Mr. Chairman.
    Chairman Clyburn. OK. So, I'm going to recognize two 
Democrats now, Mr. Krishnamoorthi and Bill Foster will be 
recognized. Then I'll go to two Republicans.
    I'll go to Mr. Krishnamoorthi.
    I understand, Chairwoman Waters, that you've agreed to 
this. Thank you.
    Ms. Waters. I did not. Mr. Chairman, it's difficult. Go 
right ahead. No, I did not agree, but I understand what you're 
trying to deal with. Please go right ahead.
    Chairman Clyburn. Thank you very much.
    Mr. Krishnamoorthi.
    Mr. Krishnamoorthi. Thank you, Mr. Chairman; thank you, Mr. 
Ranking Member; and thank you, Chairwoman Waters, for your 
indulgence.
    Good morning, Mr. Kudlow. I wanted to just touch on your 
reference to the vaccines associated with Operation Warp Speed. 
I assume that you agree that they are safe and effective, 
correct?
    I think you're on mute, Mr. Kudlow.
    Chairman Clyburn. Mr. Kudlow.
    Mr. Kudlow. Yes, I think I'm unmuted. Sorry, sir. Yes, I 
think the vaccines are safe and effective.
    Mr. Krishnamoorthi. And I assume that you agree all 
Americans should get vaccinated, correct?
    Mr. Kudlow. Absolutely. Absolutely.
    Mr. Krishnamoorthi. By the way, have you been vaccinated, 
sir?
    Mr. Kudlow. I have. Blessedly, I've received two 
vaccinations.
    Mr. Krishnamoorthi. Excellent. Thank you, sir.
    Can the staff put up a graph that I wanted to just ask Mr. 
Kudlow a couple of questions about?
    Great.
    Mr. Kudlow, I'd like to draw your attention to this graph 
here. It's basically data which shows cumulative COVID-19 
deaths over the course of the pandemic, as well as some 
statements you made during 2020. And on the X axis and the 
source of the CDC for the COVID deaths, on the X axis is the 
passage of time, and on the Y axis is cumulative deaths over 
time.
    And so, you know, one thing that I wanted to point out is 
on February 25, 2020, you told CNBC in an interview about the 
Coronavirus, quote, ``We have contained this. I won't say 
airtight, but pretty close to airtight.'' Obviously, over time, 
we know that that's not accurate as we've now seen 540,000 
deaths, approximately.
    On March 24, 2020, in an interview--I'm sorry, in a press 
conference, you said, quote, ``We are heading for a rough 
period, but it's only going to be weeks, we think.'' Of course, 
almost one year later, the pandemic is not over.
    And then, finally, I just want to bring your attention to 
June 22, 2020, when at that point we had lost 120,000 lives to 
COVID-19, and you told CNBC Squawk Box, quote, ``I really think 
it's a pretty good situation. Fatality rates, incidentally, the 
fatality rates continue to decline. So, all in all, I think 
it's a pretty good situation.''
    So, here's my question, Mr. Kudlow. At the time that you 
said on June 22, 2020, ``I really think it's a pretty good 
situation,'' look, you, sir, come across as a very intelligent 
guy, savvy, sophisticated, to a lot of people, you didn't 
really believe it was a really good situation on June 22, 2020, 
did you?
    Mr. Kudlow. Well, look, I will tell you, the case rate was 
way down at that point, and it proved to be temporary, but all 
I could do is deal with the actual facts at the time. And the 
economy was beginning to show a V-shaped recovery. And if I 
may, sir, back in February 2020, when I made the statement that 
I made about containing it, it was not a forecast; it was a 
statement of fact. There were, at that time, 14 cases, only 14 
cases. Now, later on----
    Mr. Krishnamoorthi. I'm just going to reclaim my time for a 
second. On June 22, I'm not asking about prognostications or 
case rates, but after 120,000 deaths, sir, to call it a, quote/
unquote, ``pretty good situation'' is, unfortunately, not the 
case, when we actually had a very horrible situation. And that 
lack of candor really matters, because it shows a lack of 
leadership by the Trump administration.
    I'd like to turn your attention to another issue, which is 
the economy. Mr. Kudlow, in April 2008 in the National Review 
Magazine during the Great Recession, you said, quote, 
``recessions are therapeutic. They cleanse excess from the 
economy,'' close quote.
    Mr. Kudlow, you don't dispute that you wrote those words in 
the National Review Magazine, correct?
    Mr. Kudlow. I'm sure that's correct. I have no reason to 
doubt it.
    Mr. Krishnamoorthi. According to the Department of Labor, 
Mr. Kudlow, 18 million people are currently collecting 
unemployment benefits during the recession. You don't dispute 
that statistic, correct?
    Mr. Kudlow. Wait. Are we talking about now or then?
    Mr. Krishnamoorthi. Yes. Now, now, now.
    Mr. Kudlow. Well, what does that have to do with what I 
wrote in 2008?
    Mr. Krishnamoorthi. Well, what I'm trying to say is this: 
You can't possibly think that people collecting unemployment 
benefits view their plight as therapeutic, do you?
    Mr. Kudlow. You're going from one context to another, sir. 
Look, I supported two bipartisan bills. I helped negotiate two 
bipartisan bills in 2020, both of which provided unemployment 
assistance, plus-ups, as they were called, and so I'll stand by 
that. We changed--like the rest of the world, incidentally. I 
could pull out quotes from lots of Democrats and leading 
Democrats and high Democratic officials who were in the same 
boat as I was
    [inaudible] you're in the fog of war, and you're doing the 
best you can with the facts available, and when the facts 
change, of course, we change, but I think it's kind of unfair 
to go after that.
    I supported the unemployment assistance. That's a matter of 
record.
    Chairman Clyburn. The gentleman's time is expired. Thank 
you so much.
    We're now going to adjust, once again. We are now going to 
go to Ms. Waters, because she's informed us since yesterday 
that she has an issue, then we'll go to two Republicans and 
come back to you, Bill Foster.
    Ms. Waters. Yes. Thank you very much, Mr. Clyburn. I 
appreciate your cooperation and your patience. I am in the 
middle of another hearing on GameStop, and so I do want to get 
back to that, but I just want to talk about the pandemic job 
losses that have harmed already our vulnerable populations. I 
think there's been some discussion on this already, but since 
the pandemic began, more than 525,000 of our fellow Americans 
have died from the Coronavirus. The virus has taken a 
particularly heavy toll on minorities nationwide, Latinx, Black 
Americans are more than twice as likely to have died from 
COVID-19 when age is taken into account. People of color have 
also lost their jobs at higher rates during the pandemic. The 
Black unemployment rate now stands at 9.9 percent; the Latinx 
unemployment rate at 8.5 percent; and the White unemployment 
rate at the 5.6 percent.
    Professor Spriggs, why is it that workers of color have 
faced steeper job losses than White workers during the 
pandemic?
    Mr. Spriggs. Well, initially, for the Hispanic community 
they are overworked in the industries that were hit the hardest 
in leisure and hospitality, in particular. For African-
Americans, it's a different story, because initially, African-
Americans didn't lose jobs at a disproportionate rate. The 
problem is discrimination in rehiring workers. And as the 
continued depth of the situation unfolded, it means that Black 
workers had a harder time getting back. We have to remember 
that in April, the Black and White unemployment rate virtually 
collapsed. They were as equal as they've almost ever been. So, 
there are two different forces taking place here.
    We have lost a million and a half public sector jobs. This 
disproportionately affects women and minorities, and those jobs 
have not come back during this period. It's a good thing that 
the rescue plan gave additional funds to state and local 
governments. We hope that Congress will direct states that the 
first thing they need to do with the money that they're being 
given is to rehire those one and a half million workers, and 
that will make a big difference. That's 10 percent of the gap 
in payroll that we currently are suffering from. That needs to 
take place immediately.
    So that--that's what makes this more complicated, and we'll 
have to find better ways of preventing discrimination in hiring 
to address the gaps.
    Ms. Waters. Thank you for that. You just alluded to 
discrimination in hiring. And as we know, we have been aware 
of, and lived with ``the last hire, the first fire'' for all of 
our lives. Do you think that this played an important role in 
the tremendous and disproportionate lost number of jobs that 
were lost by Blacks and Latinx?
    Mr. Spriggs. Yes. Again, the unemployment rate for high 
school dropouts, the least qualified in our country, is lower 
than the Black unemployment rate for most of this recovery last 
month finding the Black unemployment rate was better than the 
high school dropout unemployment rate, but not for Black men 
who have their unemployment rates spiked.
    So, this is vital to understand that this is not about 
Black skills, it's about the way in which people reenter the 
labor market and the scarring effects from this from this. We 
need a summer youth jobs program because we're not going to 
have recovered the labor market sufficiently to help those 
under 25 get the labor market experience to prevent the 
scarring we know takes place during this period.
    That is vital that we have a summer youth job program, 
because the dispirit impact on young Black workers is even 
greater.
    Ms. Waters. And just ask, do you believe that it is 
absolutely responsible important for the government to give 
assistance so that these jobs can be, you know, gotten again, 
and that the government should play a real role in doing that?
    Mr. Spriggs. Yes. And I want to thank Congress for 
including money for the National Endowment for the Arts. Many 
people forget that our actors, the member of SAG-AFTRA have 
been hit the hardest of all groups by not having live 
performances. The companies that would hire them are musicians 
and the American Federation of Musicians and our symphony 
orchestras and our opera orchestras are not being employed 
right now.
    We need the companies that hire them to be secure enough so 
that when we reopen, they're in place and we can get those 
workers back to work.
    Ms. Waters. Thank you. My time has been exhausted. Thank 
you very much, Mr. Clyburn.
    Chairman Clyburn. Thank you very much.
    The chair now recognizes in succession, Mr. Jordan and Dr. 
Green.
    Mr. Jordan, you're now recognized.
    Mr. Jordan. Thank you, Mr. Chairman. Mr. Kudlow, low taxes 
and less regulation works, doesn't it?
    Mr. Kudlow. Sure does.
    Mr. Jordan. I mean, it worked under Reagan, it worked under 
Clinton, it worked under President Trump. Is that right?
    Mr. Kudlow. That's correct.
    Mr. Jordan. Doesn't matter if Democrats cut taxes, 
Republican cut taxes? It doesn't matter if the Democrats reduce 
regulation, if Republicans reduce--it works for everyone in our 
economy when you do that, right?
    Mr. Kudlow. Yes. I like to refer to the JFK tax cuts as 
working for the economy, a Democrat.
    Mr. Jordan. Yes. Tax cuts and less regulation are 
nonpartisan and they help everyone--were wages up during the 
Trump economy prior to COVID?
    Mr. Kudlow. Wages rose at record pace, especially for 
middle and lower income folks. That's what the numbers show 
from the Census Bureau and the Federal Reserve.
    Mr. Jordan. Best unemployment numbers in 50 years, best 
economy in 50 years under the Trump administration prior to 
COVID. Is that right?
    Mr. Kudlow. That is correct.
    Mr. Jordan. Yes. And this was true for any subgroup in our 
economy--Hispanic Americans, African-Americans, poorer 
Americans whose wages were rising faster than middle class and 
upper-class individuals. It was good for every single person in 
our economy. Is that right?
    Mr. Kudlow. Yes, indeed. Poverty fell, inequality fell. Mr. 
Jordan, the bottom 20 percent had the single largest gain in 
income and wages and wealth. The bottom 20.
    Mr. Jordan. Lowest quintile, fastest growth we've ever 
seen, and we need to get back to that. So, what's going to help 
our economy more, Mr. Kudlow, letting Americans go back to work 
or paying Federal workers to stay home?
    Mr. Kudlow. Well, the key here is just unlocking and 
unleashing the economy, and getting these vaccinations out. 
That's the single best stimulus we can have. We're looking at 
an economic boom if we leave taxes low, and leave regulations 
low, and stop destroying the fossil fuel energy business. We 
are looking at an economic boom right now. You could have 8 to 
10 percent growth in this year.
    Mr. Jordan. But Democrats are getting ready to do all three 
of those things in the wrong direction. They're getting ready 
to raise taxes, they're making it difficult for us to use 
fossil fuel, and they're going to increase regulation under all 
kinds of climate change rules or whatever. They're going to do 
all three things wrong. They're getting ready to do that, and 
that's going to have harmful effects for our economy and, most 
importantly, for the poorest people in our economy and, in many 
cases, those happen to be African-Americans, Hispanic Americans 
who are trying to climb the economic ladder. Is that true?
    Mr. Kudlow. Look, I have severe misgivings about these 
policies. They will block, obstruct recovery, and you're right. 
It is the lowest end folks who will be hit the hardest by this. 
Just on one easy point, quickly, energy costs are going to 
skyrocket if we take----
    Mr. Jordan. They already are. They already are. They 
already are. I mean, I got--someone sent me a picture, they 
said never cost me $48 to fill up my car during the Trump 
administration because gas prices are already climbing, which, 
again, disproportionately hurts middle class, lower class 
Americans today.
    Mr. Kudlow, do you remember the first Green New Deal? Do 
you remember that plan about--oh, about 12 years ago. This was 
Solyndra, Beacon Power, Abound Solar. You remember that first 
Green New Deal that we had?
    Mr. Kudlow. Yes, I do.
    Mr. Jordan. Yes. That didn't work out too well, because 
every one of those companies--I think there were 26 different 
companies who got money from the taxpayers, most of those 
companies had a credit rating of double B-minus, and every 
single one of them went bankrupt. I don't think that really 
helped our economy much, but that was the first Green New Deal, 
and now we're getting ready for a second.
    Mr. Kudlow. I think it's always unwise to try to pick 
winners and losers. I think the private sector does it best. 
Let markets and competition work. Put these industries on a 
level playing field. Look, I'm not against renewables. You're 
not either.
    Mr. Jordan. I'm not either. I'm not either, right.
    Mr. Kudlow. The question is, let's have a level playing 
field and expand our energy portfolio. We need power to drive 
the economy. If you take away 75 percent of our power in the 
next 5 to 10 years, which is what some of these programs--some 
of these policies are suggesting, it's going to be a disaster. 
And not only will it be an economic disaster, it's going to 
strengthen the hands of our enemies overseas, particularly 
Russia, particularly Middle East, particularly China. We will 
be devastating our foreign policy as much as we'll be 
devastating our economy.
    Mr. Jordan. Is it time to get back to work, get back to 
school, and get back to normal, Mr. Kudlow?
    Mr. Kudlow. Yes. End the lockdowns. I think we made a big 
mistake. We went way too far, too long on lockdowns, and that's 
why, by the way, the low-income industries have been hit the 
hardest. I don't disagree with the analysis; I'm just 
disagreeing with the cause of it. It's the lockdowns that were 
the problem here.
    Mr. Jordan. States that let people go back to work, states 
that remained opened, largely opened, have done better than 
states that haven't, both economic--and maybe more importantly, 
or just as importantly, on any health measures as well. That's 
what we need to get back to.
    Mr. Kudlow. Agreed. Completely agree.
    Mr. Jordan. Thank you, Mr. Chairman.
    I yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Dr. Green.
    Mr. Green. Thank you, Mr. Chairman, and thanks to our 
witnesses. The quickest way to end the pandemic is to vaccinate 
as many people as possible. There's growing evidence from the 
U.K. and other allied countries that the first dose of a two-
dose vaccine provides as much protection as other one-shot 
versions, and equally reduces the spread. According to the New 
England Journal of Medicine, the Pfizer vaccine provides 92.6 
percent efficacy, while the second dose only marginally 
increases this.
    By giving the first dose to as many people as possible and 
slightly delaying the second dose, the scientific research 
shows significantly curves the virus to spread by increasing 
the number of people protected. That's why so many other 
countries are doing one shot for everyone first to cover as 
many people as possible. And I want to thank my colleague 
across the aisle, Congressman, Foster, for spearheading this 
effort, and I'm hopeful that the Biden administration will 
respond soon to our letter.
    Continuing to give two doses will delay protection for many 
and may cost lives. A year ago, the American people were told 
that we needed two weeks to flatten the curve. The next 12 
months were unlike any other we've ever seen. Broad one-size-
fits-all lockdowns brought devastating consequences for 
millions of Americans.
    Screenings for cancer and other serious health conditions 
were and still are down. States imposed restrictive shutdown 
orders, schools were shutdowns and moved to computer screens, 
thousands of businesses permanently closed their doors.
    Meanwhile, young people face a serious educational and 
mental health crisis as many have not set foot in a classroom 
for months. Millions of children are not getting the mental 
health counseling provided by their school system. Youth mental 
health visits to the emergency department have increased by 30 
percent, 30 plus percent in our country. And the CDC survey in 
August estimated that a quarter of young adults admitted to 
having thoughts of suicide. The death rate from suicide has not 
yet been reported. The lockdowns have continued long past the 
point when they cease to make sense. In fact, less than 300 
children have died to COVID; yet, a 10 percent increase in 
suicide kills far more since the average death to suicide 
fluctuates between 4,000 and 6,000 a year.
    The science is clear that in-person learning is the best 
option for students and teachers and will save lives. We know 
this. It's long past time to reopen America's schools. The 
failure to do so is a failure to put service to students over 
control by the unions and selfish politicians. Instead, the so-
called stimulus passed by the Democrats rewards lockdowns that 
states and teachers unions are pressing to keep their schools 
shuttered.
    Congress is sending over $120 billion in additional money 
to schools, but most $68 billion allocated for schools over the 
past year still hasn't even been spent. In fact, the CDL 
estimates that only five percent of this new funding will be 
spent this fiscal year. The bill actually postpones the money 
into future years to support and incentivize these closures, or 
as I've described above, incentivizing harming children.
    Hundreds of billions of dollars are going to reward states 
for dogmatically imposing lockdowns. This payoff to blue states 
and cities is destroying lives, and it's time the truth be 
told. You've heard my colleagues across the aisle pat 
themselves on the back for this almost $2 trillion more to our 
debt, while almost $1 trillion of previously approved COVID 
relief hasn't even been spent yet, all so we can reward those 
states that closed.
    This isn't a relief plan. It's not about COVID. It's a 
spending spree with the taxpayer's credit card.
    Mr. Kudlow, former Clinton Treasury Secretary and Obama 
economic adviser Larry Summers wrote that $1.9 trillion 
stimulus will, and I quote, ``set off inflationary pressures of 
a kind we have not seen in a generation, with consequences for 
the value of the dollar and financial stability.''
    Sir, could you explain those consequences to this, what it 
will mean to our economy, to our trade, the value of the 
dollar, et cetera?
    Mr. Kudlow. [Inaudible] with the bill. And I don't know if 
I agree 100 percent on the inflation issue, and I don't know if 
I agree on the dollar, but he's raising the risk, the threats, 
and he's a very smart fellow. He's a friend of mine. We worked 
together in the past, and I think people should've listened to 
that.
    You made some important points about the wastefulness of 
the spending. The incentives structures were perverse. States 
will get more money if they have a higher unemployment rate, 
which means they have an incentive to keep lockdowns. I never 
understood how that could possibly be in the bill. And also, we 
had so much unspent money--it was $1 trillion--and you're right 
about the $130 billion. That, by the way--that money for 
schools--goes--not even going to be spent. I think only $4 
billion will be spent in 2021. The rest of it will be spent in 
the next five or six years, which shows that the aim here was 
not to get schools open, but, I think, political interest group 
payoffs.
    So, Larry Summers should be heeded. I don't want to be a 
bear in this hearing. I like what I see in the economy. I think 
we are in a boom-like situation as long as we keep opening, 
opening, opening and we keep vaccinating, vaccinating, 
vaccinating. We don't need tax hikes. We don't need regulatory 
increases. We don't need to cripple the private sector. We 
don't need to end fossil fuels. Let a thousand flowers bloom. 
Let free enterprise handle this, and we are going to come out 
of it just fine.
    Mr. Green. And send the kids back to school.
    I yield, Mr. Chairman.
    Chairman Clyburn. Thank you very much.
    Now, I understand that Mrs. Maloney has agreed that we can 
now go to Mr. Foster.
    Mr. Foster. Thank you. And am I honorable and visible here?
    Chairman Clyburn. Yes, sir.
    Mr. Foster. OK. Well, first off, I'd like to thank Dr. 
Green for joining Dr. Ami Bera and myself for urging this 
improvement in the vaccination strategy, and I hope that, 
frankly, those in the administration and HHS take heed at that 
as well as the individual states.
    Dr. Stiglitz, just a quick question about some of the 
investments made during the Obama era. As I recall, during the 
Obama era, we put $500 million into a loan to this green 
startup called Tesla, and I was wondering, to enable Elon Musk 
to build his first factory.
    What is the market capitalization of Tesla today? Oops. I 
believe you're muted.
    Mr. Stiglitz. I don't know the exact number, but, you know, 
Tesla's now, I think, is worth more than General Motors. It has 
become the largest valuation of any car company.
    Mr. Foster. It's my remembrance, it's in the range of a 
fraction of $1 trillion. So, roughly, 1,000-to-1 return on that 
Federal investment, and we'll get it back simply in capital 
gains taxes when those are realized. We're going to get back 
that investment hundreds of times over.
    Mr. Stiglitz. Absolutely.
    Mr. Foster. You know, venture capital is allowed to make 
some bad investments if the home runs hit it out of the park, 
as I'm pretty clear that that did.
    Now, during the first three years--I'm just trying to do 
triage on some of the wreckage of disinformation from previous 
questioning. During the first three years of the Trump 
administration, did the average person in the top one percent 
see their wealth in absolute dollars increase more or less than 
the average person in the bottom 20 percent?
    Mr. Stiglitz. Far more. It was not a balanced recovery. You 
have to remember we have so much inequality that a one percent 
increase at the top is multitudes greater than a one percent 
increase at the bottom. The problem at the bottom is, they have 
almost no wealth at all. So, a one percent increase of zero is 
still zero.
    Mr. Foster. And as I recall, 10 years ago when we were--you 
were in front of the Financial Services Committee, there was 
this raging debate about whether the stimulus back then was 
going to debase our currency and trigger run-away inflation and 
so on and so forth. And if I recall properly, Mr. Kudlow was on 
the opposite side of that discussion.
    So, I was wondering if you can sort of summarize, you know, 
did we see runaway inflation, and so on, in the time following 
the first stimulus?
    Mr. Stiglitz. Absolutely not. In fact, one of the results 
that we've seen was the multipliers. The bang for the buck was 
very large. We got a lot of stimulus out of what we spent. The 
main mistake we made is we didn't spend enough and, therefore, 
the recovery was much lower than it otherwise would have been.
    Mr. Foster. Right. And if you look laterally at other 
economies, countries like China that had a stimulus that was 
roughly twice of ours as a fraction of GDP recovered more 
quickly. Countries like Europe like the U.K. had this austerity 
budget, they saw a recovery that was slower. And, so, I think 
we've seen a pretty good set of data that when you try to 
stimulate the economy in the presence of a big output gap, you 
don't drive inflation, but you speed up recovery.
    Is that pretty much----
    Mr. Stiglitz. Absolutely. You're seeing the same thing 
right now in COVID-19. One of the reasons that we've done 
better than Europe is that we had a bigger stimulus. And now, 
the forecast is an eight percent growth for the United States 
in 2021, and that's because we've now enacted a very strong 
stimulus, and the forecast reflect the strength and the well-
designed aspect of what the bill that's just been passed.
    Mr. Foster. And I think the point was made very effectively 
by my Republican colleagues that the key to getting more 
equitable--a more equitable economy is a tight labor market. 
Will the labor market tighten up more quickly with or without 
the stimulus spending that we've just passed?
    Mr. Stiglitz. Oh, absolutely. It's going to be faster with 
the stimulus spending, and particularly because of the design 
of the spending. It's going be directed at that parts of the 
economy where the bang for the buck will be large, and where 
the distributive effects will be very beneficial.
    Mr. Foster. Thank you. And I'll just close by pointing out 
that you gave, to my mind, probably the best summary of the 
last financial crisis in your testimony mentioning that of the 
three things our financial system had to do, which is to 
allocate capital, do it efficiently, and control risk, out of 
those three key tasks, we failed at all three. And based on 
your guidance, we passed Dodd-Frank, and one of my proudest 
accomplishments is in the last crisis, the COVID crisis, we did 
not see our financial system fall apart. So, thank you for your 
part in that.
    And I yield back.
    Mr. Stiglitz. Thank you.
    Chairman Clyburn. Thank you very much. The chair now 
recognizes Congresswoman Malliotakis. Can she hear me? The 
chair now recognizes Congresswoman Malliotakis. The chair now 
recognizes Congresswoman Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. Thank you for 
calling this important hearing, and I want to thank all the 
panelists for your testimony today. I especially want to thank 
Nobel laureate Professor Stiglitz and Larry Kudlow, who are 
both from the great city of New York.
    Our goal is to make sure that equity is at the center of 
our economic recovery policy. It's important that the 
information we use to measure the success of recovery tells a 
complete story of who actually is benefiting from overall 
economic growth.
    To monitor how the economy is recovering from the pandemic, 
one of the data points we can look at is the gross domestic 
product, but GDP data is incomplete and can obscure the fact 
that some groups are being left behind.
    Just last week, I reintroduced the Measuring Real Income 
Growth Act, which would require the Bureau of Economic 
Analysis, or BEA, to report GDP growth broken out by income 
deciles, and for the top one percent of earners, so we can see 
who is benefiting the most from GDP growth.
    Professor Stiglitz, would you agree that GDP growth broken 
out by income level would improve the quality of the BEA's 
economic data, and do you believe this bill will help ensure a 
more equitable recovery?
    Mr. Stiglitz. Very much so. And in my written testimony, I 
actually mentioned that as an important tool going forward. It 
was also mentioned that breaking down the unemployment rate by 
various groups would also give a better picture of what is 
going on. It's important to recognize that it's not just a 
percentage changes of what are going on, but the absolute 
changes because of the very dispirit circumstances, the 
increased inequality that has been so strong in the last 20 
years.
    Mrs. Maloney. Thank you. Shifting topics. I want to talk 
about how women have fared during the economic downturn. The 
numbers show that women have been disproportionately harmed by 
job losses during the pandemic from February to May 2020. As 
our Nation lock downed, more than 11.5 million women lost their 
jobs, compared to 9 million men. Black and Latino women have 
suffered the highest rate of job losses. The pandemic has 
forced many women out of the labor force entirely.
    Over the last year, we've seen a two percent drop in 
women's labor force participation, and mothers of children 12 
years old and younger were three times as likely to lose work 
than fathers of children the same age.
    So, Professor Stiglitz, why have women disproportionately 
lost their jobs and left the labor market during the pandemic, 
and why is it important to get women back into the work force?
    Mr. Stiglitz. Well, first, let me--Professor Spriggs 
remarked earlier, identified some of the factors that affect 
different groups, in particular, there's a differential 
representation across the economy. The sectors, the hospitality 
sectors have been most adversely affected by the crisis, and 
these are sectors where women are a larger fraction of the 
labor force, and disproportionately in jobs that are affected, 
and other service sector frontline jobs as well.
    And that pattern is partly a reflection of discrimination, 
a historical discrimination in the labor market. And, so, one 
of the very important aspects of the pandemic is it has exposed 
historical legacies in our economy, discrimination, access to 
healthcare that become much more apparent as result of the 
pandemic.
    Mrs. Maloney. Thank you for that clarification. The 
American Rescue Plan takes critical steps to help women get 
back on their feet and back into the labor force. The law will 
give working families an increase in the child tax credit, the 
earned income tax credit, provides emergency paid leave, and 
expands childcare assistance. It also provides more than $180 
billion to quickly reopen our schools.
    Professor, how will these provisions of the American Rescue 
Plan help bring women back into the work force and our overall 
economy?
    Mr. Stiglitz. Well, this is related to what we've been 
talking about before. The ability to get money to children 
means that the families can afford childcare, and that enables 
them to get back into the labor force. The sector-specific 
programs in the bill affect sectors where women are 
disproportionately represented, and so--and minorities, and so, 
again, will help recovery be a more balanced recovery than the 
less comprehensive measures that we took last spring.
    One of the important aspects of this bill was that it was 
much more comprehensive in dealing with some of the sectors 
that had been left out of the earlier measures.
    Mrs. Maloney. Thank you so much, Mr. Chairman, and I yield 
back, and thank you to all the panelists.
    Chairman Clyburn. Thank you, Mrs. Maloney, for yielding 
back.
    The chair now recognizes Ms. Malliotakis.
    Ms. Malliotakis. Thank you, Majority Whip. I wanted to talk 
a little bit about Mr. Kudlow, because he's from New York, and 
I'm from New York, and, certainly, we're experiencing a lot of 
the same things, and a lot of the same frustrations. The 
funding that was given to the states, the formula which changed 
under President Trump and the last Congress, the funding was 
based on population. In this Congress, it was based on 
unemployment rate. It seems that it almost incentivized states 
and local municipalities to keep the economy shutdown, to 
implement arbitrary restrictions. And then on top of it, they 
also prevented states from lowering taxes. Those states that 
did receive the money could not use it for tax deductions.
    I had actually sought to freeze taxes and require those 
states that were receiving it to not now have their cake and 
eat it too, take the money from the Federal Government and then 
increase the property taxes, for example, in the city level, or 
the income taxes in the state level. And because of that 
provision that was placed, we're now seeing the opposite occur 
where the New York state legislature and the Governor are 
saying they want to further increase taxes and, you know, we 
know that that's already driving people out of the state.
    I wanted to know what kind of impact you think that will 
have, and do you think that's something that should be 
revisited by Congress so that way, the burden is not further 
placed on the New Yorkers that live there?
    Mr. Kudlow. Absolutely. I never understood the perverse 
incentives that money would be generated, cash from Washington 
would be generated to states on the basis of their higher 
unemployment rates, because that is an incentive to keep the 
economies locked down. And the whole point of this, as several 
have observed today, we've got to open up the economy and open 
up the schools. We've created, you know, very grave 
consequences for children, for parents, for the work force, for 
women, for minority groups.
    We have got to get the lockdown ended. Let's open up 
everything. That's why I think the only good
    [inaudible]. And the other point I'll make on New York 
City, look, I'm reading, I guess, this morning or yesterday, 
New York City--it's being proposed that New York City would 
have a 15 percent personal income tax. Is that--I mean, this is 
coming from Albany or the legislature? To me, that is just 
extraordinary, because the city is already lost lots and lots 
of people, one of the worst records in the country. Smart folks 
are not going to stand around and pay a 15 percent income tax. 
They're just not going to do it, and the devastation to the 
city's economy would be even worse than it already is, and New 
York City is, I regret to say this because I'm a lifelong 
resident. Mrs. Maloney is, in fact, my Congresswoman, and has 
been for a very long time, but the city has not been in good 
shape and a 15 percent tax rate would be awful.
    I mean, some of these states have surpluses. Some of these 
states have surpluses, and they're still raising taxes. Now 
that has no macroeconomic sense in my judgment.
    Ms. Malliotakis. And as you drive the wealthier New Yorkers 
out, obviously the middle class, working class are left holding 
the bag, and the burden gets placed on them. With regards to 
the CDC in opening schools, because it was mentioned earlier, 
that Republicans voted against the money for the schools. 
However, there was--$25 billion was the estimate of the CDC to 
reopen America's schools, and in the December package, there 
was $64 billion put in, which is more than enough. So only 
under a mismanaged government would it cost eight times as much 
than the original estimate to do what we're supposed to be 
doing here.
    So, really, the burden has been--$64 billion was approved. 
It's been there since December. It's been sitting there, most 
of it unspent. We've given some to New York. New York has not 
fully reopened the schools, and so, do you really think this is 
an issue of more money needed or is it just an issue of these 
local municipalities doing their job and just reopening?
    Mr. Kudlow. Well, I think it's an issue of reopening. I 
think it's an issue of ending the lockdown. I mean, look in the 
bipartisan packages, last April and last December, put hundreds 
of billions of dollars. I helped negotiate these bipartisan 
packages. Hundreds of billions of dollars were allocated to 
states for schools, for education. And what we're seeing--and 
one of the other members raised that--is in a lot of states 
around the country, the teachers don't want to teach. A lot of 
these urban teachers union, I regret to say--I'm not against 
teachers. I think it's the leadership that does the damage.
    My wife and our two sisters-in-law were both all teachers, 
but the point I'm making is, they don't want to teach in the 
urban districts. The mayor of Chicago had to fight her own 
teachers union to get them to teach. The CDC has said many 
times, it is safe to teach even without the vaccine, but now 
the vaccines are proliferating.
    So, I don't understand this. I think we have wasted a lot 
of money and I think too much spending is, you know, going to 
be an excuse to raise taxes and that tax increase is going to 
be devastating to this economy.
    We could have a great recovery, we could have a great 
recovery if we limit spending, keep taxes low, keep regulations 
low, and keep energy portfolios large, not small. Then we have 
a terrific recovery, by far, the best in the world.
    Chairman Clyburn. The gentleman's time has expired. The 
chair now recognizes Mr. Raskin for five minutes.
    Mr. Raskin. Thank you, Mr. Chairman.
    You know, I was amazed to see Mr. Scalise, the ranking 
member, reach back to last year's talking points when he tried 
to shift the blame for hundreds of thousands of American COVID-
19 deaths from President Trump to President Xi in China, and 
the reason that they dropped that embarrassing tactic, you'll 
recall, is that Trump praised President Xi's performance and 
the Chinese Government's performance on COVID-19 37 different 
times, which is why I introduced multiple articles to that 
effect, including the many times Trump has praised China's 
handling of the Coronavirus pandemic.
    The point is that Trump's lethal, recklessness, and 
incompetence in the COVID-19 crisis manifested in his promises 
that it would magically disappear by Easter or by summer 
vacation, and his hawking of quack medical cures like injecting 
yourself with bleach and his refusal to develop a nationwide 
strategy pitting the states against each other produced the 
greatest public health debacle in American history.
    Now, when he was President, the Democrats still, despite 
all of his recklessness and malice and negligence, despite all 
of it, we worked with Republicans to pass four bipartisan 
relief bills that help prevent the economic crisis from 
plunging into a full-blown economic depression, but we couldn't 
even get a single Republican vote for the $1.9 trillion 
American recovery plan that is going to finally crush the 
disease and spread science and vaccination across the country 
and lift millions of people out of poverty and unemployment.
    Now, Republican experts acknowledge that this economic help 
is badly needed. Just a few weeks ago, Mr. Kudlow interviewed 
former Treasury Secretary Steve Mnuchin, who called for more 
fiscal stimulus saying, quote: ``My preference would be to see 
a fifth bill, and then a sixth bill, if needed.'' Mnuchin 
explicitly rejected the argument that we suddenly can't afford 
to help impoverished struggling Americans, working class people 
who have been hit the hardest during COVID-19. He said, I felt 
all along we need to spend what we need to spend.
    Professor Spriggs, do you agree with Trump's former 
Treasury Secretary Mnuchin that we need to spend what we need 
to spend in order to confront and transform this crisis?
    Mr. Spriggs. Yes. And what we revealed is, how big the 
problem of inequality in this Nation is. We passed two bills in 
the spring. By December, that money had dissipated and the 
economy had gone back into a stall. That money had been 
necessary just to keep the economy afloat. We don't appreciate 
how deeply people in the bottom 20 percent have no liquidity 
and, therefore, have to have a lot of money pumped into them 
during these crises.
    When we came out of the 2001 downturn, the biggest thing 
that was a drag was our ignoring the people at the bottom. This 
rescue plan that just passed, fortunately, pays attention to 
people at the bottom, so that we can keep their consumption up.
    Mr. Raskin. Professor, the labor movement has always been a 
strong ally of small business. We couldn't get any Republicans 
to support the amazing small business provisions in the rescue 
plan, but now that we passed it, a number of our Republican 
colleagues are celebrating the value in it. For example, on 
March 10, Senator Roger Wicker tweeted about the strong support 
in the bill for independent restaurants, writing: ``This 
funding will ensure small businesses can survive the pandemic 
by helping to adapt their operations and keep their employees 
on the payroll.''
    Do you agree that the American Rescue Act will help 
restaurants and the people who work in restaurants, Professor 
Spriggs?
    Mr. Spriggs. Yes. This is one of the areas that had been 
slow to be able to get assistance. They had not had access to 
the PPP in the same way. And in Europe, they kept everyone on 
payroll. This is going to be an interesting experiment when we 
come out of this globally to see whether keeping people on 
payroll was the better way to do this. We, the United States, 
have very high unemployment rate compared to industrial 
partners.
    Mr. Raskin. Great. We've got a lot more work to do. The Fed 
Chairman, Jerome Powell, warned in recent testimony that the 
economic recovery remains uneven, and far from complete and the 
path ahead is highly uncertainty.
    Professor Stiglitz, in light of this uncertainty which 
still overhangs the economy, do you believe Congress needs to 
take additional steps to ensure a complete, strong, economic 
recovery, including investments in the Nation's ailing 
infrastructures, the roads, the highways, the rail systems, 
cybersecurity, and so on?
    Mr. Stiglitz. Obviously, the pandemic has exposed a lot of 
the weaknesses in our economy. The extent to which the $1.9 
trillion will enable us to get back to near full employment is 
still uncertain. There are some who think we'll have an eight 
percent growth. But regardless of that, the need to address the 
problems that have been with us for so long--our inequality, 
the lack of infrastructure, the weaknesses in our healthcare 
system, the problems in our environment, all these need to be 
addressed, and they need to be addressed quickly.
    Mr. Raskin. Mr. Chairman, finally, I think my time's up. I 
am just asking unanimous consent to submit a letter that was 
sent to Speaker Pelosi and Minority Leader McCarthy from 19 
different educational groups in the country requesting support 
for the American Rescue Act, so that we could reopen the 
schools across America, and it was signed by the school 
superintendents, the American Federation of Teachers, the 
National Rural Education Association, and so on, 19 groups 
representing schools all across America asking for us to reopen 
the schools with the American Rescue Plan. And I ask unanimous 
consent to enter this letter into the record.
    Chairman Clyburn. Without objection, so ordered.
    Mr. Raskin. And I yield back. Thank you.
    Chairman Clyburn. Thank you very much for yielding back.
    All time has expired for questions. I do not see the 
ranking member. I see his space--there he is. The chair would 
now yield to the ranking member for any closing statement he 
would like to make.
    Mr. Scalise. Again, I want to thank the chairman for having 
the hearing, as well as our witnesses for talking about some of 
the challenges we're facing as a Nation. I think Mr. Kudlow's 
points were well-heeded that, as we've seen our economy 
starting to bounce back, the last thing we need to do are 
things like raise taxes, put heavy regulations, go start 
punishing industries in America because that is what would slow 
down our recovery. We don't need to look very far to see where 
some states have done it much better than others.
    Again, I would like this committee to put some time into 
looking at what states have done well, so that we can try to 
replicate it, so that we can try to encourage other states as 
they're getting these big windfalls of money, and I think we've 
seen states like California will get over $40 billion when they 
have a $10 billion surplus. Not sure if that's the best use of 
money when we're borrowing this money from our kids to give 
checks to states that are already experiencing surpluses, to 
give checks to felons in prison. No one's explained why that 
has anything to do with COVID relief.
    Even giving money to school systems when Ashley Hinson, my 
colleague from Iowa, had a bill that would say, if schools get 
new money, they have to use it to actually reopen their 
schools. I thought that was what we were all about, except that 
the majority blocked those kinds of bills from moving forward, 
or those kind of amendments from even being offered.
    So it's one thing to say you want to reopen schools, but 
when you don't even bring an amendment, or allow us to bring an 
amendment that would dedicate the money to reopening schools, 
are you really for reopening schools? So I would like to see us 
continue to focus on being targeted at helping where problems 
exist, helping our small businesses, helping families who are 
struggling; not sending checks to everybody, but sending checks 
to people who are actually in need, especially not sending 
checks to felons who are in prison. We're already paying for 
their costs, and they're paying their debt to society. They 
don't deserve a check from the taxpayers that are borrowed from 
our kids.
    Again, the states that have done it well, they're examples 
all across this country. Where states did things right, let's 
let those successes be highlighted. Let's not replicate those 
mistakes and states like New York where they still are trying 
to cover up the data on deaths, why were there so many deaths? 
Because Governor Cuomo violated the guidelines that President 
Trump's administration put out there, forced the seniors to go 
back into the nursing homes with COVID, and even banned the 
nursing homes from testing for COVID, and then, unfortunately, 
we saw thousands of deaths. Those families need answers. We 
ought to be focused on giving them those answers.
    So, hopefully, we focus on helping people in need, not just 
borrowing money for our kids, to give money to states who are 
experiencing surpluses because they happen to be run by 
Governors who shut things down and decimated their economy.
    With that, I would yield back.
    Chairman Clyburn. Thank you very much. And let me close 
this hearing by thanking our witnesses for being here today. We 
appreciate the tremendous expertise you have shared as Congress 
works to tread a path for a strong and equitable post-pandemic 
economy.
    Today's hearing made clear that economic hardships caused 
by the Coronavirus pandemic have disproportionately impacted 
Americans who were already vulnerable. This includes low-wage 
workers, women, and Black and Latinx Americans.
    Today's hearing also made clear that there are steps our 
government must take now to ensure that the economic recovery 
does not leave the most vulnerable behind, so that Americans 
can obtain the assistance they need, while we work to vaccinate 
Americans and contain the virus. Imagine the success of the 
American Rescue Plan, I am hopeful that the administration will 
follow the recommendations in today's letter that I've made 
reference to earlier, so that we can chart our progress toward 
a more inclusive economy with hard metrics.
    The Select Subcommittee must conduct appropriate oversight 
so that Congress can move from rescue to recovery efficiently, 
effectively, and equitably. This starts with bold action to 
invest in our country's infrastructure through these 
investments we can create good-paying jobs in all communities, 
building the infrastructure we need for a more prosperous and 
equitable future.
    In the years following the financial crisis in 2008, we 
witnessed how an economic recovery can leave communities behind 
and exacerbate inequities, not to mention how uneven and 
inequitable, the country's response was after the Great 
Depression and World War II. As we climb out of another 
economic crisis, we must have both an opportunity and an 
obligation to ensure that we have the country's response to 
this post-pandemic economy working for all Americans.
    We must heed the lessons of the past and the valuable 
insight from our witnesses here today to ensure that we build 
back better.
    With that, without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response.
    This hearing is now adjourned.
    [Whereupon, at 1:14 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
